M E M O R A N D

                                                                 March 28, 2007
   To:    Brian Cartwright
          Kristine Chadwick
          Conrad Hewitt
          John White

   From: Walter Stachnik

   Re:   . Audit of Full Disclosure Program's Staff Interpretive Guidance
           Process (Audit No. 416)


   Attached is our audit report on the Full Disclosure Program's Staff
   Interpretive Guidance process. Your comments on the draft report have
   been incorporated a s appropriate.
   We would appreciate receiving any additional comments you have concerning
   this audit and the report. In particular, we would like to know whether you
   found the audit useful. We also welcome any suggestions from you
   concerning how we could improve future audits.
   The courtesy and cooperation of you and your staff during this audit are
   appreciated.
   Attachment
   cc:   Ed Bailey
         Corey Booth
         Bob Burns
         Alex Cohen
         Martin Dunn
         Dave Frederickson
         Richard Hillman
         James Kroeker
         Bill Lennox
         Meredith Mitchell
         Nancy Morris
         Shelly Luisi
         David Lynn
         Zoe-Vonna Palmrose
         Darlene Pryor
         Diego Tomas Ruiz
         Carol Stacey
         Peter Uhlmann
         Other staff who participated in the audit
             FULL DISCLOSURE
          INTERPRETIVE GUIDANCE

                             EXECUTIVE SUMMARY
We reviewed the Division of Corporation Finance's and the Office of the Chief
Accountant's staff interpretive guidance process (i.e., preparing, reviewing, tracking,
issuing, and reporting). They are responsible for the Full Disclosure program.
We identified a number of possible improvements to the process. Our
recommendations concern Staff Accounting Bulletins, disclosure of staff guidance,
workload reporting, timeliness, management reports, file documentation, policies
and procedures for answering requests, and speech approvals.
Commission management generally concurred with our recommendations. Written
comments from management are attached i n Appendix A.



OBJECTIVES, SCOPE, AND METHODOLOGY
Our objective was to determine if improvements could be made to the Full
Disclosure program's staff interpretive guidance (SIG) process. We also evaluated
implementation of the recommendations in the Government Accountability Office's
(GAO) report (number 01-718, dated June 2001 "Reviews of Accounting Matters
Related to Public Filings") regarding guidance from the Office of the Chief
Accountant ( 0 CA).
Our audit scope included several types of staff interpretive guidance, a s described in
the Background section. The audit emphasized guidance given to specific
requestors because this is more common than guidance given to everyone (i.e.,
public guidance). Because informal (e.g., telephone) requests are not generally
documented, we focused on formal (written) requests. Appendix B contains
additional information regarding our audit scope.
To identify possible improvements involving formal requests, we reviewed internal
controls and the extent of compliance with existing procedures and considered
whether any additional procedures were needed.1 However, we are not expressing
a n opinion on the procedures because we only reviewed a limited number of formal


1    In this report, there is little distinction between internal controls and procedures. Therefore, the term
    "procedures" will include both concepts.
                                                                                                        Page   2


requests. Also, our ability to evaluate compliance with procedures was limited
because:
          The files do not necessarily indicate compliance with procedures because the
          files are created and maintained to document the substance of the issues, the
          analysis followed, and the conclusion reached; and
           Some procedures are not applicable for each formal request.

Our methodology included interviews and surveys of Commission staff, review of
supporting documentation (e.g.,the files containing the request and response), and
analysis of management reports, among other procedures. Appendix C describes
the audit samples we used.
The audit was performed from March 2006 to January 2007. We conducted this
performance audit in accordance with Generally Accepted Government Auditing
Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence that provides a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.



                                       BACKGROUND
Requestor Specific Guidance
The Division of Corporation Finance (CF) and OCA staff provide interpretive
guidance on the Full Disclosure program upon request. Requests are typically from
a n issuer, a n accounting firm, a law firm, a member of the public, or another
Commission office.
Requests may be formal or informal. The staff requires a formal written request
when the staffs answer will depend on the specific facts and circumstances
involved.
The staffs response to formal requests may be either written or verbal, while
informal requests receive verbal responses. OCA almost always responds orally to
formal requests because of its limited staff resources. Also, it wishes limited
reliance placed on the guidance. However, the requestor can submit a letter
summarizing the staffs oral response. OCA will review the letter and provide
comments, as appropriate.
Written responses consist of interpretive and No-Action letters.2 Interpretive
letters interpret a statute, rule, or regulation in the context of a specific fact
pattern. No-Action letters provide assurance to the requestor that the staff will not
recommend a n enforcement action based on the facts described. The facts must be
as represented by the requestor, and the requestor must act in accordance with the
representations, if it is to rely on the assurance in the letter.

2   In this report, the term "letter" includes interpretive and No-Action letters, unless otherwise stated.

FULL DISCLOSURE INTERPRETIVE GUIDANCE                                                        MARCH 28, 2007
AUDIT 416
                                                                             Page     3




Public Guidance
Besides answering specific requests, CF and OCA staff also issue guidance to the
public. Public guidance is provided when the staff receive similar requests from
numerous requestors, become aware of a n inconsistent industry practice, or
anticipate questions arising after the issuance of a new rule. Public guidance
includes Staff Accounting Bulletins (SAB), Staff Legal Bulletins (SLB), Staff Letters
to Industry, speeches, and FAQ (frequently asked questions) issuances.

Legal Issues
Guidance provided by the staff is by definition not approved by the Commission.
Accordingly, such guidance is not subject to the Administrative Procedure Act
(APA), a s it is not final agency action. The APA sets forth the basic procedural
requirements for agency rulemaking.
Staff guidance interprets and explains existing rules, rather than creating new
rules. Any rulemaking would require Commission action and be subject to the
procedural requirements of the APA (e.g., public notice and comment).
The Commission either on its own initiative or pursuant to a n appeal can revoke,
modify, or adopt staff interpretive guidance. While staff guidance lacks the
authority of a Commission issuance, it can nonetheless have a significant impact on
company practices.

Staffing
Within the Full Disclosure program, most interpretive guidance is issued by four
groups that range from four to fifteen staff. Two of these groups are in CF and two
are in OCA, a s described below:
       Office of Chief Counsel within CF (OCC-CF). Guidance issued by this office
       involves the registration and reporting provisions of the Securities Act of
       1933, the Securities Exchange Act of 1934, and the Trust Indenture Act of
       1939, a s well a s whether companies may exclude a shareholder proposal
       from its annual proxy statement (17 CFR 8240.14a-8). Companies seeking to
       exclude a shareholder proposal must provide a justification. OCC-CF issues
       a No-Action letter either granting or denying the company's request covering
       a shareholder proposal.
       Office of the Chief Accountant within CF (OCA-CF). This office provides
       guidance on Commission rules and regulations related to financial reporting,
       such a s Regulation S-X (17 CFR 5210), except for the sections involving
       auditor independence in Rule 210.2-01 (this describes auditor qualifications).
       Office of the Chief Accountant's Independence Group (OCA-IG). This group
       provides guidance on external auditor qualifications and independence (Rule
       210.2-01 of 17 CFR 8210).
       Office of the Chief Accountant's Accounting Group (OCA-AG). This group
       provides guidance on Generally Accepted Accounting Principles (GAAP)


FULL DISCLOSURE INTERPRETIVE GUIDANCE                                MARCH 28. 2007
AUDIT 416
                                                                              Page    4



       issued by authoritative private sector organizations, such a s the Financial
       Accounting Standards Board (FASB) and its Emerging Issues Task Force.
In addition to its permanent interpretive guidance staff, CF annually establishes a
task force of approximately seventeen CF staff to process the peak season
(December to February) of shareholder proposal requests. This peak season occurs
during the period when most companies file their annual reports on Form 10-K and
related proxy statements. Based on CF data, approximately eighty-one percent of
shareholder proposals were submitted during the peak seasons in fiscal years 2004
and 2005.

Workload
The Commission's fiscal year 2007 budget request indicated that in fiscal year 2005,
CF answered 1,310 formal requests for interpretive guidance, of which 450 were
shareholder proposals. CF also answered 32,500 informal requests (e.g., telephone
calls). OCA answered 360 formal and 3,500 informal requests. OCA also provided
advice to Enforcement staff on 340 enforcement matters.
In the Audit Results section, we discuss the timeliness of the staffs interpretive
guidance.



                           AUDIT RESULTS
We found that the process for issuing staff interpretive guidance in the Full
Disclosure program can be improved. Our specific findings and recommendations
are described below.


STAFF ACCOUNTING BULLETINS
OCA and CF began issuing SABs in 1975 to improve dissemination of its accounting
interpretations. They have issued 108 SABs (not including amendments); fifteen
SABs have been issued since April 1995.
They send draft SABs throughout the Commission for comment, including the
Commissioners' legal assistants. The legal assistants receive the copies (as opposed
to the Commissioners directly).
17 CFR 9202.1(d) states that the staff "will generally present questions to the
Commission which involve matters of substantial importance and where the issues
are novel or highly complex.. ." However, because of the involvement (i.e., providing
comments) of the Commissioners in developing the SABs (albeit through their
assistants), in some circumstances the current process potentially could lead to
concerns that SABs represent final agency actions. In one instance, a SAB was not
issued for several months because of substantive concerns raised by one
Commissioner.
Final actions trigger the requirements of the APA and generally occur when a n
agency has consummated all action necessary to complete a n action that determines

F U L L DISCLOSURE INTERPRETIVE GUIDANCE                             MARCH 28, 2007
AUDIT 416
                                                                               Page     5


legal consequences. The APA requirements could also be triggered if the SABs were
to be viewed a s rule-making, rather than as a n interpretation of existing rules.
According to the Office of the General Counsel (OGC), it is desirable for the
Commissioners to have the opportunity to review a SAB to make sure that the staff
is not engaging in de facto rulemaking and to evaluate whether the Commission
wants to take up the matter and instead issue a Commission final action in the
area.

        RecommendationA
        OCA should obtain advice from OGC on ensuring that the SAB process is
        properly structured under the APA. Depending on the results of OGC's
        advice, OCA in consultation with the applicable divisions and offices, should
        modify the process accordingly.

        Recommendation B
        OGC, depending on the results of the advice (see Recommendation A), should
        review the processes for other types of non-requestor specific interpretive
        guidance (e.g., SLB) issued throughout the Commission. If OGC has
        compliance concerns, it should notify the affected divisions and offices so that
        the processes are modified accordingly.


DISCLOSURE OF SHAREHOLDER PROPOSAL GUIDANCE
As described in the Background section, a company seeking to exclude a shareholder
proposal from its annual proxy statement receives a No-Action letter either granting
or denying the company's request.
After CF issues a No-Action letter, it sends the request package (i.e., the request
and the staff letter) to the Public Reference Office. These documents are also
available from research services (e.g., LexisNexis).
The Commission7swebsite indicates that letters issued after January 2002 will be
posted on the Commission7swebsite.3 However, the posting is not being done
currently for shareholder proposals. Posting of the letters would enhance public
dissemination of information and the E-Government Act of 2002 (Public Law 107-
347).

        Recommendation C
        CF, in consultation with the Office of the Secretary (OS), should consider
        posting shareholder proposal No-Action letters on the Commission's website.

According to CF, posting these letters in a timely manner would require additional
staffing.




FULL DISCLOSURE INTERPRETIVE GUIDANCE                                  MARCH 28, 2007
AUDIT 416
                                                                             Page   6



WORKLOAD REPORTING
The Commission's annual Congressional budget requests include workload data
from CF and OCA. However, a s described below, we identified several issues
involving the reporting of the workload data.



We were unable to readily reconcile CF's interpretive guidance workload data for
non-shareholder proposals between its management reports and the information
provided in the Commission's annual budget request. Based on discussions with
CF, the problem is due to some human errors and other possible reasons. The
passage of time and the number of individuals involved in compiling the data make
this reconciliation more difficult and time consuming.

       Recommendation D
       CF should review its process for reporting workload data for non-shareholder
       proposals in budget requests. The process should be documented and
       auditable.

OCA
OCA reports the number of formal requests for guidance answered by its
Independence and Accounting Groups. This number includes requests answered
from accounting firms and issuers, a s well a s a n estimate of requests answered from
Commission staff not assigned to the Enforcement program. Also reported is a n
estimate of the number of informal requests answered. OCA does not have
adequate documentation to support the estimated portion of the reported workload
data.

       Recommendation E
       OCA should consider improving its workload reporting in budget requests
       (e.g., disclosing that its workload data contain estimates, not including the
       estimates in its workload data, or improving its documentation regarding the
       estimated work).


TIMELINESS
Meeting Goals
As described below, CF has time goals for issuing interpretive guidance. Where
possible, we evaluated its workload data (see Appendix C, Section I):
       As described in the Background section, companies seeking to exclude a
       shareholder proposal must provide a justification. OCC-CF issues a No-
       Action letter either granting or denying the company's request covering a
       shareholder proposal.


F U L L DISCLOSURE INTERPRETIVE GUIDANCE                             MARCH 2 8 , 2007
AUDIT 416
          OCC-CF has a goal of acting on company requests to exclude shareholder
          proposals sufficiently in advance of the time a company is required to file its
          definitive proxy statement materials and the printing and distribution of the
          proxy statement to investors. CF believes that it is meeting this
          requirement. We were unable to readily evaluate this assertion because
          companies are not required to inform the Commission when they intend to
          print the proxy statement.
          OCC-CF's goal for other requests is to issue initial comments within thirty
          days of receipt of the letter. It is meeting this goal about fifty percent of the
          time, due to novel and complex requests and workload issues (e.g., the
          shareholder proposal peak season). We found OCC-CF's explanation to be
          reasonable. Therefore, we are not making any recommendations related to
          this issue.
          OCA-CF has a goal of answering formal requests within ten days. I t is
          meeting this goal about seventy-one percent of the time.
OCA has established a n internal goal of providing non-Commission staff with a n
oral response within two to three weeks. We were unable to readily evaluate
whether this goal is being achieved because of missing data and the lack of
management reports (these issues are discussed below). According to recent OCA
data (which was not audited) and discussions with senior management, OCA
currently appears to be generally meeting this goal.

Reporting Goals
The Commission's annual Performance and Accountability Report (PAR),4 uses
different time goals for measuring CF's performance than CF uses internally (see
section above "Meeting Goals"). The PAR uses six months a s the time goal and it
combines data from CF and other Commission divisions. In addition, the PAR does
not include CF requests which are answered orally. OCA's SIG work is excluded
from the PAR.
I n addition, the Commission's internal management report (Dashboard) contains
different timeliness goals for CF than the goals that are cited by the PAR or used
internally by CF.

          Recommendation F
          The Office of Financial Management, in consultation with CF and OCA,
          should consider revising the PAR with respect to interpretive guidance data
          (e.g., setting consistent CF time goals, including oral responses given by CF,
          and including OCA's work) in the PAR.




4   Exhibit 2.6 (of the 2006 PAR) discusses the Commission's time goals for issuing letters and contains
    language related to public disclosure.

FULL DISCLOSURE INTERPRETIVE GUIDANCE                                                   MARCH 2 8 , 2 0 0 7
AUDIT 4 1 6
                                                                            Page      8



       Recommendation G
      CF, in consultation with the Office of the Executive Director, should consider
      revising the timeliness measures in its Dashboard report to make them
      consistent with its internal time goals.


MANAGEMENT REPORTS
CF and OCA manage their interpretive guidance workload using management
reports from Access databases or Word files. As discussed below, we identified
several issues.

OCC-CF Database for Non-Shareholder Proposals
Many times, the requestor's initial request is denied. OCC-CF opens a new matter
in its database if a revised request is submitted. According to OCC-CF data, OCC-
CF answered 235 requests in fiscal year 2005. We estimate that a t least twenty
percent of these requests were resubmissions.
OCC-CF attempts to link the original and revised requests in its database and
workload reports. However, it believes the database needs improvement linking
resubmissions to the original requests. The Office of Information Technology (OIT),
through its Walk-In Development Center (WIDC), may be able to help OCC-CF
improve the database.

       Recommendation H
      CF, in consultation with OIT and the WIDC, should consider possible
      improvements to its database regarding linking resubmissions to the original
      request. Depending on whether (and what) improvements are made, CF
      should consider disclosing its reporting methodology when reporting
      workload data in future budget requests.

OCA-AG Computer System
OCA-AG does not use management reports with detailed information on formal
requests because these reports have not been needed to manage its workload.
However, OCA-AG tracks overall trends (including response timeliness, whether
the requestor was a registrant, and request topics), and monitors pending requests.
In consultation with OIT, OCA is obtaining a new web-based computer system. The
system is expected to improve monitoring of work assignments and may allow direct
electronic submission of requests. I t will also allow the staffs conclusion
memoranda regarding the request and other documents to be downloaded, thus
aiding staff research.




F U L L DISCLOSURE INTERPRETIVE GUIDANCE                            MARCH 28, 2007
AUDIT 416
                                                                                                    Page        9



OCA- IG Request Numbers
OCA assigns a request number to each formal request for interpretive guidance.
However, this number does not appear in its management report. As a result,
specific requests are difficult to locate in the report.
We also found requests which were not recorded in the report. OCA-IG indicated
that when it created the report on about May 2005, it tried to include prior requests.
Apparently, some requests were missed. Including the request number in the
report could help identify unrecorded requests.

          Recommendation 1
          OCA should add the interpretive request number to its management report.

Tracking OCA Conclusion Memoranda
OCA staff are expected to prepare a conclusion memorandum5 within ten business
days of providing the oral response. OCA-AG indicated that it is not achieving this
goal because of insufficient staff. As a result of many staff departures (and the
inability until recently to replace staff because of budgetary reasons), it has had
limited time available to draft these memoranda.
OCA-IG does not track the goal in its management report. It believes that it is
generally preparing conclusion memoranda timely. However, we were not able to
evaluate its compliance with the goal, based on the information in its files.

          Recommendation J
          OCA should include the elapsed time to prepare and approve the conclusion
          memorandum in OCA-IG's reporL6

Missing Data for CF and OCA
CF and OCA-IG provided us with management reports generated from their Access
databases and Word files. The reports contained several instances of missing data.
It appears that the missing data were mainly caused by human error, the creation
of the report for OCA-IG (as discussed above), and certain data fields that were no
longer relevant.



          CF should remind its staff to record all required data in its Access databases
          containing guidance request information. It should delete any unnecessary
          data fields.


5   OCA-IG primarily relies on a separate document (i.e., the Standard Consultation form) to summarize the
    guidance request.
6   We are not making a recommendation regarding OCA-AG because it does not have a similar report (as
    previously discussed). In addition, it recently received approval to hire new staff, which should improve
    the timeliness of its conclusion memoranda.
                 -



FULL DISCLOSURE INTERPRETIVE GUIDANCE                                                    MARCH 28, 2007
AUDIT 416
                                                                                Page 10


        Recommendation L
        OCA should remind its staff to record all required data in its Access
        databases and Word files containing guidance request information.


FILE DOCUMENTATION
We reviewed a sample of formal requests processed by CF and OCA (see Appendix
C, Section 11). The files are created and maintained to document the substance of
the issue, the analysis followed, and the conclusion reached, but do not necessarily
indicate whether the required processing steps were performed.

The files generally documented the substance of the issue, the analysis followed,
and the conclusion reached, but they occasionally lacked relevant documents (e.g.,
CF screening sheets or correspondence).

OCA has developed a checklist to document compliance with some of its procedures.
OCA-IG also uses the Standard Consultation form to help ensure that key steps are
addressed. The checklist can also be used to help ensure that the files contain
appropriate documentation. CF does not use a checklist.

        Recommendation M
        CF should create a process (e.g., a checklist) for formal guidance requests to
        help ensure that all significant procedures are followed and appropriate
        documentation is obtained.

        Recommendation N
        OCA should consider expanding the checklist for OCA-AG to help ensure
        that all significant procedures are followed and appropriate documentation is
        obtained.


POLICIES AND PROCEDURES FOR ANSWERING REQUESTS
GAO Recommendations
In June 2001, GAO recommended that OCA provide the public with additional
information regarding OCA's policies and procedures for handling registrant
matters (GAO report number 01-718). I n addition, it recommended that OCA
should discuss several issues with the representatives of the accounting profession
and registrants. We found that OCA generally implemented GAO's
recommendations.




F U L L D I S C L O S U R E INTERPRETIVE G U I D A N C E              MARCH 28, 2007
A U D I T 416
                                                                                                  Page 11


CF Guidance
CF has provided information (i.e., SLB 14 and the subsequent amendments) on the
Commission's website7 regarding shareholder proposal requests. Releases (i.e., Nos.
33-6253 and 33-6269) regarding non-shareholder proposals are not posted on the
Commission's website. Also, the releases may be outdated, since they were issued
in 1980.
Several CF staff stated that providing guidance information on the website would be
beneficial. The guidance should cover the format of the request, the information
required, EDGAR filing requirements, time frames for responding, the research that
requestors should perform, and the topics appropriate for guidance.

          Recommendation 0
          CF, in consultation with OS, should determine whether the interpretive
          guidance releases (discussed above) need updating, and post the releases on
          the Commission's website.

EDGAR Uploads
According to OCA-CF's procedures,s OCA-CF's letter to the requestor should be
uploaded to the non-public section of EDGAR,9 unless the request involves a n Initial
Public Offering. Uploading helps provide a complete history of issues involving the
company.
During our review of the files, we identified a few instances where the uploading
was not performed because of a n apparent oversight. According to CF, this issue is
mitigated because CF staff have access to OCA-CF's database which can identify
requests, and OCA-CF maintains paper files regarding the request.

          Recommendation P
          CF should remind its OCA staff to upload guidance response letters to the
          non-public section of EDGAR, and periodically verify that the uploading has
          occurred.

Modify Procedures
We identified several procedures for interpretive guidance that CF and OCA should
consider formalizing, as discussed below:
          CF's and OCA's procedures do not mention checking whether a preliminary
          inquiry or investigation involving the requestor is ongoing, although OCA-
          IG's Standard Consultation form includes this step. Based on our review of


7   http://www.sec.gov/interps/legal.shtml.
8   Prior to our audit, OCA-CF did not have written procedures because its process is relatively simple and
    straightfonvard. OCA-CF documented its procedures during our audit.
9   EDGAR is used by public companies to submit their filings. The non-public section of EDGAR contains
    documents involving filing reviews.
                        -- -



FULL DISCLOSURE INTERPRETIVE GUIDANCE                                                   MARCH 28, 2007
AUDIT 416
                                                                                                   Page 12


           the files, we were unable in many instances to determine whether this step
           was performed (see Recommendations M & N). CF and OCA believe that its
           staff do check the appropriate Commission database (known a s NRSI).
           OCC-CF's procedures for both shareholder and non-shareholder proposals do
           not indicate whether the request package should be uploaded to the non-
           public section of EDGAR. OCC-CF believes that uploading the request
           package would be useful.

           Recommendation Q
           CF should modify its formal request procedures a s discussed above.

           Recommendation R
           OCA should modify OCA-AG's formal request procedures as discussed above.


SPEECH APPROVALS
Commission staff (including senior management) provide interpretive guidance
through speeches at Commission or industry conferences, training sessions, and
other venues. Speeches (and articles for publication, etc.) must be approved (i.e.,
cleared) by OGC before being given or published.
Under Commission procedures, the draft speech is sent to the Ethics Office within
OGC. The Ethics Office records information about the speech into a database, and
then forwards it to OGC's Legal Policy section.
Staff in Legal Policy review the speech, advise the speaker of any necessary
changes, and then approve the speech. Legal Policy sends a clearance
memorandum and other documentation to the Ethics Office, which maintains a file
for each speech.
We reviewed a sample of ten speeches (see Appendix C, Section 111) and found
several instances of non-compliance with required procedures:
           Three speeches were submitted late to the Ethics Office (less than thirty
           days before the event), without adequate justification.
           Six speeches were not recorded by the Ethics Office in its database a t the
           beginning of the clearance process.10 Four of these six speeches were not
           received by Ethics, and thus were not recorded; the speech givers contacted
           Legal Policy directly or did not have the speech cleared until after it was
           given (see next bullet). Two of these six speeches were also not recorded by
           Ethics, through apparent oversight.
           Three speeches were apparently not properly reviewed in accordance with
           the required process procedures because the formal Legal Policy review
           occurred after the speech was given (as explained in OGC's response below).

10   In two instances, Ethics subsequently learned about the speech and recorded the information in their
     database. This occurred prior to our audit.

FULL DISCLOSURE INTERPRETIVE GUIDANCE                                                    MARCH 28, 2007
AUDIT 416
                                                                               Page 13


       The file or relevant documentation maintained by Ethics was missing for five
       speeches.

In March 2006, Ethics sent a reminder to all Commission staff regarding the speech
clearance process. However, additional steps to improve the clearance process
appear appropriate.

       Recommendation S
       OGC should review its existing clearance process procedures to determine
       whether any changes should be made. In addition, it should take steps to
       help ensure compliance with the procedures. For instance, the Ethics Office
       could periodically check its database and file documentation for
       completeness.
Overall, OGC concurred with our assessment. It stated that its ability to comply
with the existing procedures is dependent on non-OGC staff complying with the
requirements. For instance, a possible reason why the three speeches described
above were not formally reviewed, is that Legal Policy sometimes does not have the
time (e.g., because the speech is not submitted timely) to conduct a formal review;
instead it provides a n informal review before the speech is given. OGC believes that
a n informal review is preferable to not reviewing the speech at all before it is given.
We believe that OGC's explanation is reasonable. As a result, we have modified our
original recommendation accordingly.




F U L L DISCLOSURE INTERPRETIVE GUIDANCE                               MARCH 28, 2007
AUDIT 416
                                                                                     Page 14


                                                                            APPENDIX A
                                              MEMORANDUM


TO:               Walt Stachnik, Inspector General

FROM:

DATE:
                  Diego T. Ruiz, Executive Director

                  March 23,2007
                                                       T             \

RE:              Draft Audit Entitled "Full Disclosure Interpretive Guidance"


       Thank you for the opportunity to comment upon your Office's drafi audit entitled "Full
Disclosure Interpretive Guidance." In particular, I was pleased that you focused on the performance
metrics used to gauge the timeliness of these important activities.

      ' The draft report recommends that the Office of Financial Management, in consultation with the
Division of Corporation Finance (CF) and the Office of the Chief Accountant, should consider revising
the Performance and Accountability Report with respect to interpretive guidance data. In addition, the
report recommends that CF, in consultation with the Office of the Executive Director, should consider
revising the timeliness measures in the dashboard report to make them consistent with the Division's
internal time goals.

         I concur with these recommendations and will implement them as we continue to improve the
quality of the agency's performance metrics in the Commission's PAR and other reports. The SEC is
currently working to revise its performance metrics as part of the process of updating its long-range
strategic plan. Any changes then would be reflected in the agency's annual performance documents and
internal dashboard reports. The draft audit recommendations discussed above will be addressed as part
                              '



of this process.

          Thank you.for your attention to this important topic.




          FULL DISCLOSURE INTERPRETIVE GUIDANCE                                 MARCH 28, 2007
          AUDIT 416
                                                                                    Page 15



                                                                         APPENDIX B

Audit Scope
Besides the explanation in the text of the report, our audit scope was limited as
follows:
             The accuracy or policy implications of the guidance provided was not
             reviewed.
             Guidance provided by the Investor Education and Assistance program (i.e.,
             by the Office of Investor Education and Assistance and the investor
             specialists in the field offices) on routine matters was not reviewed.
             The processing of Confidential Treatment Requests (CTR) was not reviewed.
             Sometimes, requestors file a CTR to delay the disclosure of sensitive
             information. This topic will be considered for future audit planning.
     .       We did not review staff Congressional testimony because such testimony
             occurs infrequently.
             Our review of the speech clearance process was limited to assessing
             compliance with procedures. We did not review the effectiveness or
             efficiency of the process.
             Limited audit work was performed on guidance provided by the CF Offices of
             International Corporate Finance, Mergers and Acquisitions, and Small
             Business. They routinely answer informal requests, but answer relatively
             few formal requests annually.
             Limited audit work was performed on OCA's process for providing guidance
             to the Enforcement program (i.e., the Division of Enforcement and the
             Enforcement staff in the field offices) on issues that arise during preliminary
             inquiries and investigations.
             Limited audit work was performed on OCA's process for providing guidance
             to the Division of Investment Management. These situations are typically
             requestor specific involving filing submissions and reviews.
             We did not review OCA's role in providing input to the accounting and
             auditing standard setters (e.g., the Financial Accounting Standards Board,
             the Public Company Accounting Oversight Board, and Emerging Issues Task
             Force). This topic will be considered for future audit planning.




-
-        -



F U L L DISCLOSURE INTERPRETIVE GUIDANCE                                    MARCH 28, 2007
AUDIT 416
                                                                                 Page 16



                                                                      APPENDIX C

        I.      Sample Used for Timeliness of CF Staff Interpretive Guidance
                  OCC-CF non-shareholder proposals: We reviewed requests
                  answered during fiscal year 2005. We selected this fiscal year
                  because we believe it is representative of CF's work. We obtained
                  the list of answered non-shareholder requests from a report
                  created from OCC-CF's Access database. According to the report,
                   OCC-CF answered 235 requests. We excluded two responses
                  because of data issues.

                    OCA-CF: We reviewed requests answered during fiscal years
                    2004 and 2005. We selected these fiscal years because we believe
                    they are representative of CF's work. We obtained the list of
                    requests answered from a report created from OCA-CF's Access
                    database. According to the report, OCA-CF answered
                    approximately 1,103 requests. We excluded 170 responses
                    because of missing data, and twelve responses for data reliability
                    issues. As a result, our analysis was based on 921 responses.


                Sample Used for the Selection of Files

                Given the limited number of files we reviewed and our judgmental
                selection process, we did not intend the results of our audit samples to
                be projected to the universe of formal requests answered.

                    OCC-CF shareholder proposals: We judgmentally selected ten
                    requests that were answered during fiscal years 2004 and 2005.
                    We selected these fiscal years because we believe they are
                    representative of CF's work. The list of answered shareholder
                    proposals was obtained from a report created from OCC-CF's
                    Access database. We excluded requests which:
                       o were withdrawn prior to the staff issuing a decision
                           (ninety-one instances); or
                         o   sought reconsideration andlor a n appeal of a previously
                             issued decision (ninety-five instances).
                    We selected ten responses from a total of 725 responses.

                    OCC-CF non-shareholder proposals: We judgmentally selected ten
                    requests that were answered during fiscal year 2005. See Section
                    I above for additional sampling information.

                    OCA-CF: We judgmentally selected ten requests that
                    were answered in writing during fiscal years 2004 and 2005. We
                    selected these fiscal years because we believe they are

FULL DISCLOSURE I N T E R P R E T I V E G U I D A N C E                  MARCH 28, 2007
AUDIT 416
                                                                           Page 17


                  representative of CF's work. We obtained the list of written
                  responses from a report created from OCA-CF's Access database.
                  According to the report, OCA-CF answered 649 requests in
                  writing.

                  OCA-IG: We judgmentally selected ten requests that were
                  answered during fiscal years 2004 and 2005. We selected these
                  fiscal years because we believe they are representative of OCA-
                  IG's work. We obtained the report from a Word file. Based on the
                  report, we estimated that sixty-four requests were answered. As
                  previously discussed, the Word file contained data issues.

                  OCA-AG: As previously discussed; OCA-AG did not have a
                  management report. As a result, OCA-AG created a list of some
                  recently answered requests from non-Commission staff. According
                  to OCA-AG, in fiscal year 2005 it received approximately 115
                  requests from non-Commission staff. We judgmentally selected
                  ten requests from the list.


              Sample Used for Amroving S ~ e e c h e s
              We judgmentally selected ten speeches given by CF and OCA staff
              during fiscal years 2004, 2005, and 2006. We selected this time
              period because we believe it is representative. We selected the
              speeches from the Commission's website. Approximately seventy
              speeches from Full Disclosure staff were on the website for these
              fiscal years. Given the limited number of speeches reviewed and the
              judgmental selection process, we did not intend the results of this
              audit sample to be projected upon the universe of speeches.




F U L L D I S C L O S U R E INTERPRETIVE GUIDANCE                 M A R C H 28, 2007
AUDIT 416
